NATIONAL CREDIT UNION ADMINISTRATION




        OFFICE OF THE INSPECTOR GENERAL

                REPORT TO CONGRESS

              October 1, 1999 – March 31, 2000




                  THE NCUA MISSION

  TO ENSURE THE SAFETY AND SOUNDNESS OF CREDIT UNIONS

  BY PROVIDING APPROPRIATE REGULATION AND SUPERVISION,

  WHILE EFFECTIVELY MANAGING THE AGENCY'S RESOURCES

             AND THE SHARE INSURANCE FUND



     THE OFFICE OF INSPECTOR GENERAL MISSION

    TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS

            IN NCUA PROGRAMS AND OPERATIONS,

  AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE
                   INDEX OF REPORTING REQUIREMENTS

                     OFFICE OF INSPECTOR GENERAL
                NATIONAL CREDIT UNION ADMINISTRATION


SECTION                        DATA REQUIRED                     RESPONSE   PAGE REF
 4(a)(2)   Review of Legislation and Regulations                               17
 5(a)(1)   Significant Problems, Abuses, or Deficiencies                        9
           relating to the administration of programs and
           operations disclosed during the reporting period.
 5(a)(3)   Recommendations with Respect to Significant                         9
           Problems, Abuses, or Deficiencies.
           Significant Recommendations Described in Previous
 5(a)(3)   Semiannual Reports on Which Corrective Action Has       None
           Not Been Completed.
 5(a)(4)   Summary of Matters Referred to Prosecution
           Authorities and Prosecutions, Which Have Resulted.      None
           Summary of Each Report to the Board Detailing
 5(a)(5)   Cases Where Access to All Records Was Not               None
           Provided or Where Information Was Refused.
 5(a)(6)   List of Audit Reports Issued During the Reporting                   21
           Period.
 5(a)(7)   Summary of Particularly Significant Reports.                         9
           Statistical Tables on Audit Reports With Questioned                 19
 5(a)(8)   Costs.
 5(a)(9)   Statistical Tables on Audit Reports With                            20
           Recommendations That Funds Be Put To Better Use.
5(a)(10)   Summary of Each Audit Report Issued Before the          None
           Start of the Reporting Period for Which No
           Management Decision Has Been Made by the End of
           the Reporting Period.
5(a)(11)   Description and Explanation of Reasons for any          None
           Significant Revised Management Decision Made
           During the Reporting Period.
5(a)(12)   Information Concerning Significant Management           None
           Decisions With Which the Inspector General is in
           Disagreement.
Inspector General’s Semiannual Report                          National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

During this reporting period, we audited several aspects of the agency’s preparations for and
handling of the century change. The OIG audit staff can take some credit for having alerted the
agency to technical computer issues both within the agency and in the credit union community,
which the NCUA then appropriately addressed. We supervised the financial audits of NCUA’s
four funds, and conducted a peer review of the Securities and Exchange Commission’s Office of
Inspector General. We completed work on our web page to add more information about the
office and the agency, and to make it more user-friendly. We also produced a new annual plan,
and revised our strategic plan.

On the investigations side, we were able to close investigations that had remained open until the
Board received the final investigative report from the Office of Special Counsel on allegations of
false duty locations made in the 1997 OPM audit. Once the Board received that report, it
proceeded to take disciplinary and other action to address the findings of the Special Counsel, as
well as concurrent findings in OIG reports.

During this reporting period, we also completed internal investigative training for all OIG staff.


AUDIT HIGHLIGHTS

The Year 2000 date change consumed the majority of the OIG’s audit resources during the past
reporting period. We completed work and issued reports on the Y2K progress of high-risk credit
unions; Y2K liquidity plans of federally insured credit unions; and the Y2K readiness status of
credit union vendors. We also completed a peer review of the Securities and Exchange
Commission’s Office of Inspector General’s audit activities for the year ended September 30,
1999. The Federal Housing Finance Board’s Office of Inspector General is currently conducting
a peer review of our audit function as required every three years by the President’s Council on
Integrity and Efficiency (PCIE).

In addition to the audits performed directly by OIG staff, we monitored the financial audits of
NCUA’s four funds conducted under contract with the OIG by our independent auditors, Deloitte
& Touche. All four funds received unqualified opinions.


INVESTIGATIVE HIGHLIGHTS

We issued five formal investigative reports and two Management Implication Reports (MIR).
MIRs have become a useful tool for us to bring administrative issues to the attention of agency
managers and recommend action to resolve possible systemic problems quickly. The agency
responded quickly to the recommendations in the MIRs issued during this reporting period.

In an effort to reach out to NCUA employees, we have prepared and presented integrity
awareness training to a management conference, revised our posters and brochure, and issued
integrity alerts in the NCUA newsletter. We are preparing short presentations on integrity


                                                      i
Inspector General’s Semiannual Report                 National Credit Union Administration


awareness for the regional conferences this summer, in order to raise awareness of the OIG and
stimulate reporting of integrity issues.


FUTURE PLANS

Now that Y2K activities have been successfully completed, the OIG plans to emphasize
information security and agency strategic planning activities required by the Results Act. We
also plan to perform more management consulting reviews at the regional office level. The
management consulting concept that we have developed, involves limited scope reviews of
regional office or field activities. A management consulting agreement signed by the Inspector
General and Regional Director clearly specifies the subject matter and scope of work to be
performed.


                                                   Frank Thomas
                                                   Inspector General




                                              ii
Inspector General’s Semiannual Report                                           National Credit Union Administration


                                             TABLE OF CONTENTS


INDEX OF REPORTING                                                                                                 inside
REQUIREMENTS...............................................................................................         front
                                                                                                                   cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS..............................                                                i


NATIONAL CREDIT UNION ADMINISTRATION......................................                                           1


      NCUA Highlights..........................................................................................      4


      Federally Insured Credit Union Highlights...................................................                   6


      Legislative Highlights....................................................................................     7


OFFICE OF THE INSPECTOR GENERAL...................................................                                   8


AUDIT ACTIVITY.............................................................................................          9


INVESTIGATION ACTIVITY...........................................................................                   15


LEGISLATIVE AND REGULATORY REVIEWS.........................................                                         17


OTHER INSPECTOR GENERAL ACTIVITIES..............................................                                    18


TABLE I – REPORTS WITH QUESTIONED COSTS..................................                                           19


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                             20
          THAT FUNDS BE PUT TO BETTER USE................................


TABLE III – SUMMARY OF OIG ACTIVITY..............................................                                   21
Inspector General’s Semiannual Report               National Credit Union Administration


         NATIONAL CREDIT UNION ADMINISTRATION


T
        he National Credit Union Administration (NCUA) was established as an
        independent, federal regulatory agency on March 10, 1970. The agency is
        responsible for chartering, examining, supervising, and insuring federal credit
        unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of December 31, 1999,
the NCUA was supervising and insuring 6,566 Federal credit unions and insuring 4,062
state-chartered credit unions, a total of 10,628 institutions. This represents a loss of 167
Federal and 99 State chartered institutions since mid 1999, for a total loss of 266 credit
unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2000 budget on November 18, 1999. The final revised
2000 budget of $134,942,546 represents an increase of $12.9 million over the 1999
budget. The Full Time Equivalent (FTE) staffing authorization for 2000 is 1049.07, an
increase of 7.92 positions over the 1999 total of 1041.15.

The significant increase in the 2000 budget is necessary in order to provide the resources
required to hire and retain competent staff, and to meet the agency’s goals and objectives
as documented in the 2000 Annual Performance Plan.



                                                2000          1999      Difference
           LOCATION                             FTE           FTE          FTE
           Headquarters                        236.40       228.40           8
           Regional Offices                    173.27        167.25         2.92
           Field Examiners                     639.50        640.50          -3
            Total Positions Authorized        1049.07       1041.15         7.92




                                             1
Inspector General’s Semiannual Report            National Credit Union Administration




           140,000

           120,000

           100,000

            80,000
                                                                   Budget
            60,000

            40,000

            20,000

                0
                     1995   1996   1997   1998    1999   2000




              1060
              1040
              1020
              1000
               980
               960                                                  FTEs

               940
               920
               900
               880
                     1995   1996   1997   1998    1999   2000




                                          2
Inspector General’s Semiannual Report                                   National Credit Union Administration




                             NCUA ORGANIZATION CHART


                                                      -NCUA BOARD-
                                                        CHAIRMAN

                                  OFFICE OF INSPECTOR                OFFICE OFCOMMUNITY
                                        GENERAL                       DEV. CREDIT UNIONS

                                            GENERAL                      NCUA BOARD
                                            COUNSEL                        STAFF


                             HEADQUARTERS                EXECUTIVE            FIELD
                             OFFICES                                          OFFICES
                                                         DIRECTOR


        OFFICE OF                       OFFICE OF                        REGION I             REGION II
     GENERAL COUNSEL             EXAMINATION & INSURANCE                ALBANY, NY         ALEXANDRIA, VA


        OFFICE OF THE                   OFFICE OF                        REGION III          REGION IV
 CHIEF INFORMATION OFFICER           CORPORATE CREDIT                   ATLANTA, GA           LISLE, IL
                                         UNIONS

       OFFICE OF                      OFFICE OF THE                      REGION V            REGION VI
    HUMAN RESOURCES              CHIEF FINANCIAL OFFICER                 AUSTIN, TX         CONCORD, CA


        OFFICE OF                       OFFICE OF                 ASSET MANAGEMENT &
      ADMINISTRATION               INVESTMENT SERVICES             ASSISTANCE CENTER
                                                                        AUSTIN, TX



   OFFICE OF PUBLIC &             OFFICE OF TRAINING &
  CONGRESSIONAL AFFAIRS              DEVELOPMENT




                                                              3
Inspector General’s Semiannual Report              National Credit Union Administration


                             NCUA HIGHLIGHTS
Follow-up on last Semiannual’s Highlights

NCUA and CREDIT             UNIONS      HURDLED        NEW     CENTURY        WITHOUT
PROBLEMS

Despite doomsday predictions, the credit union community met Y2K with no problems
and NCUA’s own computer systems continued to operate efficiently. The successful
“non-event” was due in large part to the careful preparation by NCUA examiners, who
visited every credit union two or more times over the prior two years, and insured that all
federally insured credit union systems were updated and tested. The NCUA also assured
that major credit union vendors had no Y2K related problems. NCUA staff worked the
rollover weekend to track and assist with any problems.

The OIG closely monitored all NCUA Y2K preparedness activities, issuing six audit
reports that measured the agency’s accomplishments in the months prior to the century
change.


BOARD ISSUES ADVANCED NOTICE OF PROPOSED RULEMAKING ON
REGULATORY FLEXIBILITY AND EXEMPTION

On March 16, 2000, the NCUA Board passed an initiative by Board Member Dennis
Dollar to request public comment on his “Reg-Flex” proposal that would remove credit
unions with specified CAMEL ratings and capital asset levels from some regulatory
requirements. Mr. Dollar announced the proposal in October 1999, in an attempt to
encourage credit union innovation in member service initiatives and to help improve the
ability of credit unions to compete in the financial marketplace.

OIG Audit reports have recommended that the examination process could be adjusted to
account for credit unions that consistently gain high marks for safety and soundness.
Accordingly, we will closely follow this agency effort.


BOARD APPROVES VOLUNTARY SURVEY ON SERVICE TO MEMBERS OF
MODEST MEANS

On November 18, 1999, the Board voted two to one, Chairman D’Amours dissenting, to
send out a one-time only survey to federal credit unions on service to members of modest
means. The purpose of the survey, initiated by Board Member Yolanda Wheat, was to
elicit responses from credit unions to enable the NCUA to gain a better understanding of
the extent to which credit unions provide service to people of modest means. The agency
currently does not gather such data. Chairman D’Amours disagreed with the voluntary
nature of the survey, stating that in his view it should have been mandatory, in order to
gather meaningful empirical data.


                                            4
Inspector General’s Semiannual Report              National Credit Union Administration




New Highlights

BOARD FINALIZES PROMPT CORRECTIVE ACTION RULE

On February 3, 2000, the Board adopted final Prompt Corrective Action rules, Part 702,
741, and 7647 in response to the requirements of the Credit Union Membership Access
Act of 1998. The Act required NCUA to adopt a new system of net worth standards and
actions to restore the net worth of inadequately capitalized federally-insured credit
unions.      Effective August 7, 2000, the final rule will apply to each credit union’s net
worth ratio reflected in call reports beginning January 22, 2001.


BOARD ADOPTS AGENCY STRATEGIC PLAN

On February 23, 2000, the Board unanimously adopted its Strategic Plan for 2000-2005.
Draft versions had been circulated in the agency and in the stakeholder community
several times and comments incorporated. The plan sets forth five strategic goals:

   1. Promote a system of financially sound, well-managed federally insured credit
      unions able to withstand economic volatility.
   2. Ensure that credit unions are prepared to safely integrate financial services and
      emerging technology in order to meet the changing needs of their members.
   3. Create a regulatory environment that will facilitate credit union innovation to
      meet member financial service expectations.
   4. Enable credit unions to leverage their unique place in the American financial
      services sector to make service available to all Americans who are not currently
      being served, particularly those of modest means.
   5. Enhance NCUA’s ability to serve as a proactive partner with the credit union
      community in addressing the challenges of the 21st century.




                                            5
Inspector General’s Semiannual Report              National Credit Union Administration


  FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial statement data) to NCUA.

C      An NCUA staff assessment of the 1999 year end call reports submitted by all
       federally insured credit unions for the period ending December 31, 1999, found
       that key financial indicators continue to be strong in all areas.

ASSET GROWTH AND CAPITAL ACCUMULATION CONTINUE

Federally insured credit unions continued to increase assets and capital. Assets increased
by $22.7 billion, or 5.8%, up from $389 to $411 billion. Capital increased $2.9 billion, or
6.5%, during 1999, and the capital to assets ratio increased to 11.6%. The net capital to
total assets ratio, which measures capital after estimated losses, also increased from
10.9% at the end of 1998 to 11.0% at the end of 1999.

LOANS CONTINUE TO INCREASE

Loans increased $25.8 billion, or 10.5%, up from $246 to $272 billion. All loan
categories increased, except for unsecured loans (excluding credit cards and lines of
credit). Used auto loans increased $6.1 billion, or 12.5% increase. First mortgage real
estate loans, which increased $9.5 billion (15.5% increase), accounted for 26.1% of all
loans, with $51.8 billion, or 73% reported to be a fixed rate. Federally insured credit
unions granted $21.4 billion in fixed rate first mortgage real estate loans in 1999. During
this same period, $6.1 billion fixed and adjustable rate first mortgages were granted.
Credit unions also report $7.1 billion of first mortgages sold in 1999. This includes both
fixed and adjustable rates.

Loan growth of 10.5% was the strongest since 1996. Shares grew at a much slower rate,
causing the loan to share ratio to increase to 76.1%.

DELINQUENT LOANS DECREASE

Delinquent loans decreased $115 million or 5.3% causing the delinquency ratio to decline
from 0.88% at the end of 1998 to 0.75% at the end of 1999. This represents the lowest
delinquency ratio ever noted in federally insured credit unions. Net charged off loan
dollars decreased 8%, or $132 million. A decrease in charged off loan dollars, increase in
recoveries, and increase in total loans produced a decline in the net charge off to average
loans ratio from 0.59% to 0.49%.

Federally insured credit unions reported fewer members filing bankruptcy in 1999.
Bankruptcies decreased 12% to 214,700 (0.3% of all members), with an estimated $1
billion in outstanding loans subject to bankruptcy and another $684 million charged off in
1999 as a result of bankruptcies.




                                            6
Inspector General’s Semiannual Report           National Credit Union Administration


                      LEGISLATIVE HIGHLIGHTS




PRESIDENT’S BUDGET PROPOSAL INCLUDES $1 MILLION FOR CDCU

Chairman D’Amours testified before the VA, HUD, and Independent Agencies
Subcommittee of the House Appropriations Committee on March 28, 2000, to support an
increase to the Community Development Credit Union (CDCU) Revolving Loan Fund.
For the first time ever, the Office of Management and Budget (OMB) included in the
President’s budget an additional $1 million for technical assistance in the fund. NCUA
will not testify at a Senate hearing, but NCUA staff has met with Senate Staff and will
submit a statement and justification for the record.

CHAIRMAN ASKS FOR RETENTION OF CLF FY2000 CAP

In his March 28 testimony, Chairman D’Amours also asked the Subcommittee to retain
the FY2000 cap enacted last year on the Central Liquidity Facility (CLF), and not to
reimpose the lower number. At the request of Senator Leach (R-IA) and Congressmen
LaFalce (D-NY), GAO will study the issue and respond to the Subcommittee with its
recommendations. As they did last year, Representatives Marge Roukema (R-NJ) and
Bruce Vento (R-MN) wrote to the Subcommittee on April 6, 2000, to suggest that there
should not be any appropriations cap.

BOARD MEMBERS SUPPORT PREDATORY LENDING BAN

Congressman LaFalce (D-NY) introduced H.R. 3823, which would ban acceptance of
checks drawn on Federally insured financial institutions by fringe “payday” lenders.
NCUA is monitoring this and two other similar bills.

On December 16, 1999, the Board unanimously adopted a stance against predatory
mortgage lending practices and dedicated itself to work against such practices in
cooperation with state credit union supervisory authorities. Board Member Wheat
sponsored the Board resolution. The effort was strongly praised by Chairman D’Amours.




                                          7
Inspector General’s Semiannual Report                           National Credit Union Administration


                   OFFICE OF INSPECTOR GENERAL


T      he Office of Inspector General was established at the NCUA in 1989 under the
       authority of the Inspector General Act of 1978, as amended in 1988. The staff
       consists of the Inspector General, an Assistant Inspector General for
Investigations/Counsel, a part-time Special Agent, an Assistant Inspector General for
Audits, two Senior Auditors, a Senior Information Technology Auditor and an
Administrative Assistant.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA                  and      Congress       apprised        of   significant    findings      and
   recommendations.



                                                   FRANK THOMAS
                                                INSPECTOR GENERAL


          WILLIAM DESARNO                  ALEXANDRA KEITH, LEGAL COUNSEL/               DENISE CLARKE
    ASSISTANT INSPECTOR GENERAL             ASSISTANT INSPECTOR GENERAL             ADMINISTRATIVE ASSISTANT
             FOR AUDITS                          FOR INVESTIGATIONS


           CHARLES FUNDERBURK, CPA                      ANNE K. VOEGELE
               SENIOR AUDITOR                            SPECIAL AGENT

             DWIGHT ENGELRUP, CPA
                SENIOR AUDITOR

               TAMMY RAPP, CPA
      SR INFORMATION TECHNOLOGY AUDITOR




                                                        8
Inspector General’s Semiannual Report            National Credit Union Administration



                               AUDIT ACTIVITY

AUDIT REPORTS ISSUED

Financial Audits

Our contract accounting firm, Deloitte & Touche, issued opinions on the 1999 financial
statements of the National Credit Union Share Insurance Fund, the National Credit Union
Administration Operating Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Program. The auditors found that the financial statements
presented fairly the financial position of the agency’s funds as of December 31, 1999.
The firm issued its opinions on February 25, 2000.

The National Credit Union Share Insurance Fund was established as a revolving fund
managed by the NCUA Board to insure member share deposits in all Federal credit
unions and qualifying state credit unions up to $100,000 per shareholder account. The
auditors issued an unqualified opinion on the Share Insurance Fund’s financial
statements. The Fund’s total assets for 1999 were $4.3 billion, up from $3.9 billion in
1998.

The NCUA Operating Fund was established as a revolving fund managed by the
NCUA Board for the purpose of providing administration and service to the federal credit
union system. The auditors issued an unqualified opinion on the Operating Fund’s
financial statements. The Fund’s total assets for 1999 were $54.6 million down from
$57.2 million in 1998.

The Central Liquidity Facility was established, as a mixed ownership government
corporation managed by the NCUA Board to improve general financial stability by
meeting the liquidity needs of credit unions. The auditors issued an unqualified opinion
on the CLF’s financial statements. The CLF’s total assets for 1999 were $1,962 million
up from $806 million in 1998.

The Community Development Revolving Loan Program’s purpose is to stimulate
economic activities in the communities served by low-income credit unions. This in turn,
will result in increased income, ownership and employment opportunities for low-wealth
residents and other economic growth. The auditors issued an unqualified opinion on the
Program’s financial statements. The CDRLP’s total assets for 1999 were $11.7 million,
up from $10.8 million in 1998.


Y2K Progress of High-Risk Credit Unions, OIG-99-08, dated October 27, 1999

In an August 28, 1998, letter to the NCUA Inspector General, the House Committee on
Banking and Financial Services requested information regarding OIG Y2K review


                                           9
Inspector General’s Semiannual Report              National Credit Union Administration


activities. The OIG discussed the possibility of reviewing several areas of NCUA Y2K
activities including consistent reporting to Congress of credit union readiness with
committee staff. The OIG and committee staff was interested to determine if credit
unions particularly in the unsatisfactory and needs improvement reporting categories,
were receiving appropriate and timely follow-up to ensure satisfactory progress.

Our specific review objectives were: (a) to evaluate whether credit unions rated
unsatisfactory (credit unions under administrative actions) and those rated needs
improvement (examiner rated high risk - not progressing satisfactorily) were receiving
appropriate and timely follow-up; and (b) to determine if high risk credit unions had
adequate Y2K contingency plans. In addition, we wanted to review a small sample of
credit unions rated satisfactory (low and medium risk rated credit unions) to determine if
the rating appeared justified based upon NCUA’s criteria.

We reported that at the time of our review, 99.3 percent of the nation’s federally insured
credit unions had finished repairing, testing and verifying their computer systems to
ensure they could process transactions smoothly after January 1, 2000. To determine
credit union readiness agency examiners visited every federal credit union twice and we
reported that many would have a third visit before the end of 1999. NCUA examiners
spent over 90,000 hours onsite conducting Y2K readiness examinations. We found that
supervisory contacts were being made in accordance with agency guidance, and staff was
following supervision guidance.

Credit unions rated unsatisfactory and needs improvement had declined dramatically in
1999. As of August 31, 1999, NCUA reported that only .5 percent of the credit unions
were rated unsatisfactory or needs improvement. The results of our review found that, in
most instances, follow-up contacts were made as required at high risk credit unions in a
timely manner and in accordance with agency guidance.

In our review of a small sample of credit unions rated low risk, we found that credit
unions were being rated in a consistent manner in accordance with agency guidance. At
the time of our review, follow-up at satisfactory rated credit unions was under discussion.

NCUA required that credit unions prepare Business Resumption Contingency Plans
(BRCP). We found that BRCPs were prepared by the credit unions in our review sample.
The examiner’s review documentation indicated most BRCPs were reasonable and
acceptable. However, it was difficult to determine the degree of analysis performed by
the examiner in determining the acceptability of the plans. At the time of our review, not
all BRCPs had been tested. In some instances, testing of the BRCPs was to be done in
the third and fourth quarters of 1999. Follow-up plans regarding analysis and testing of
BRCPs were in the discussion and developmental stages.

The OIG offered three suggestions for consideration by the NCUA Board and agency
management. We suggested that NCUA develop plans to test the actual status of a
sample of credit unions making satisfactory progress (low risk rated); that NCUA develop
appropriate staff guidance for follow-up by examiners at credit unions for analysis of the



                                            10
Inspector General’s Semiannual Report              National Credit Union Administration


adequacy of credit union BRCPs and to ensure timely implementation of the plans as
needed; and that NCUA develop plans and guidance for staff for the review of testing of
credit union BRCPs to ensure that the testing plans are reasonable and that the testing has
been successfully performed.


Y2K Review of Credit Union Liquidity Plans, OIG-99-09, dated December 9, 1999

During 1999, concerns had been raised over a potential increase in liquidity and cash
demand. Because of this uncertainty, the Federal Reserve, financial regulatory agencies
such as NCUA, and other organizations had prepared plans and taken action to deal with
a potential liquidity emergency. Although steps had been taken to increase liquidity and
cash availability, financial regulatory agencies and credit union trade organizations had
encouraged each financial institution to prepare a liquidity plan to ensure they could meet
the needs of their customers or members. In order to mitigate the liquidity risks credit
unions might face due to the Y2K problem, NCUA required all of its federally insured
credit unions to prepare liquidity plans by June 30, 1999.

Our specific review objectives were: (a) to determine if NCUA had taken a proactive
role to address emergency liquidity issues and minimize disruption at the credit unions it
oversees; and (b) to determine if natural person credit unions had adequate plans to
address Y2K liquidity issues.

We reported that NCUA had taken appropriate action to address and minimize potential
liquidity emergencies as a result of the century date change. Some of these actions
included working with Congress to temporarily lift the CLF borrowing limitation, issuing
guidance to credit unions and examiners, requiring credit unions to prepare liquidity
plans, and promoting public awareness.

We reviewed a sample of liquidity plans and found that each credit union in our sample
prepared a liquidity plan. The examiners review documentation indicated that most
liquidity plans were reasonable and adequate. However, it was difficult to determine the
degree of analysis performed by the examiner in determining the adequacy of the plans.
Our review of the plans indicated that many of the critical attributes suggested in
NCUA’s guidance were missing and that there was much room for improvement with the
plans. As a result of our observations, one of the regions indicated they would issue
additional guidance to their examiners and perform a quality control review to ensure the
plans were reviewed and, in fact, adequate.

The OIG suggested that NCUA continue to review liquidity plans to ensure that:
critical attributes are considered in plan; assumptions in liquidity and cash needs analysis
are reasonable; sufficient backup resources (cash and liquidity) are available to meet
estimated needs; significant changes in credit union policy are communicated to
members; and examiner review and feedback is documented. We also suggested that
NCUA should continue to follow-up on liquidity plans that are incomplete or rated
inadequate.


                                            11
Inspector General’s Semiannual Report              National Credit Union Administration


Y2K Readiness Status of Credit Union Vendors, OIG-99-10, dated December 7,
1999

The NCUA supervises 11,019 natural person credit unions - 6,799 federally chartered and
4,220 state chartered. Approximately 92 percent of these credit unions were identified as
using Electronic Data Processing (EDP) vendor products for core processing (share and
loan systems).

The objectives of our review were: (a) to determine the Y2K status of credit union
system vendors, and (b) to determine what action NCUA was taking to ensure that
vendors were making satisfactory progress in providing renovated systems to its credit
union clients.

We reported that substantially all federally insured credit union mission critical systems
were renovated by the NCUA testing milestone of June 30, 1999. All but 48 credit
unions reported that they had met the July 31, 1999 substantially implemented milestone
date.

We also reported that NCUA staff felt confident that the status of vendors was accurately
reported due to the various programs that were put in place by NCUA, which included:

1.   NCUA conducted on-site primary vendor reviews
2.   FFIEC vendor reviews
3.   NCUA examiner and regional office reporting of vendor problems
4.   Off-site contacts as needed for problem vendors
5.   Issuance of blanket waivers
6.   Credit union due diligence in testing vendor products

Since NCUA had reported that 99.97 percent of all federally insured credit unions were
fully implemented as of September 30, 1999, we offered no recommendations in this
report. However, we encouraged NCUA to continue to post NCUA vendor reports to the
NCUA website and distribute appropriately; to continue to distribute FFIEC reports, as
appropriate; and as new vendor problems arise, if any, promptly notify affected regions,
state regulators and client credit unions.


AUDITS IN PROCESS

Review of Notebook Computers

We are in the process of issuing a draft report on NCUA’s notebook computer inventory.
Our review objectives were to determine the accuracy of NCUA’s notebook inventory
and to evaluate the adequacy of internal controls over notebook computers.




                                            12
Inspector General’s Semiannual Report              National Credit Union Administration


SAP Security and Control Audit

We are in the planning phase of a SAP security and control review that will be performed
in partnership with an independent public accounting firm. Our overall objective is to
ensure that the existing control environment and security infrastructure of the SAP R/3
system is adequate. Specifically, determine whether the controls are adequate to reduce
the risks to an acceptable level for BASIS and the FI, CO, and MM-Purchasing modules
and provide recommendations for corrections of noted deficiencies. In addition, we will
identify the current functionality of the HR module and perform an overall high-level risk
assessment. These assessments will serve as a baseline for future audits and reviews by
the OIG. To assist us in our audit of SAP Security and Controls, we have solicited
proposals from seven large audit firms. We plan to complete this audit by September
2000.


SEC OIG Peer Review

We completed the fieldwork and draft report for a peer review of audit operations at the
Securities and Exchange Commission (SEC) Office of Inspector General (OIG). The
review period was for the fiscal year ended September 30, 1999. The review was
conducted in accordance with the guidance adopted by the President’s Council on
Integrity and Efficiency (PCIE). The objective of the PCIE external quality control
review program is to foster quality audits by OIGs through an independent assessment of
the effectiveness of the internal quality control system in providing reasonable assurance
that applicable audit standards and requirements are being followed. The program is
intended to be positive and constructive rather than negative or punitive. The scope of
our review included evaluations of the SEC OIG (1) description of internal quality
control policies and procedures, (2) written audit policies and procedures, (3) discussions
with the SEC Inspector General and staff, (4) documents describing auditor qualifications
and training, and (5) audit work papers for four audits. We provided five suggestions to
improve the audit operations of the SEC OIG. The SEC Inspector General accepted all
suggestions for action.


Region I Management Consulting Agreement – Accuracy of 5300 Reports

We completed fieldwork for a Region I management consulting project. The project was
not a formal audit. However, the project scope was outlined in a management consulting
agreement signed by the Inspector General and the Regional Director. The objective of
the review was to provide assistance to the Regional Director in determining the accuracy
of financial and other data supplied to NCUA on a periodic basis by federally insured
credit union. The review period was calendar year 1999. Specific review procedures
included:

   •   An evaluation of the relationship of the 5300 program to written staff guidance,
       regional goals, regional performance plan, and national strategic plan;



                                            13
Inspector General’s Semiannual Report             National Credit Union Administration


   •   Interviews of regional staff to determine and evaluate regional office program to
       ensure accuracy of 5300 reports; and
   •   A review of the regional office process for distribution of forms to credit unions,
       input of credit union data, preparation of risk management and other quality
       control reports.




                                           14
Inspector General’s Semiannual Report                National Credit Union Administration



                        INVESTIGATION ACTIVITY


I
    nvestigative matters pursued by this office are generally initiated as a
    result of allegations, or because of potential findings of fraud, waste,
    abuse, corruption, or mismanagement.                Investigations may involve
    possible violations of regulations regarding employee responsibilities and
conduct, Federal criminal law, and other statutes and regulations pertaining to
the activities of NCUA employees.             Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

The OIG also receives complaints from credit union members that involve NCUA
employee program responsibilities. These complaints are usually examined to determine
whether there is any allegation of NCUA employee misconduct. If not, the complaint is
referred to the appropriate regional office or closed if contact with the regional office
indicates that the complaint has been appropriately handled.




            Investigative Contacts


                Contacts/inquiries/investigations carried                     10
                  forward from previous reporting period

                Contacts initiated during report period                       8

                             Total contacts during reporting period           18


                Less:

                Contacts closed for lack of verifiable evidence               7
                  or referred to another office




                Reports issued and matters closed                             6
                MIR’s issued and closed                                       2

                         Pending contacts                                     3




                                              15
Inspector General’s Semiannual Report              National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES

During the reporting period, the Office of Investigations issued five formal investigative
reports, two Management Implication Reports, and closed seven other matters. In an
effort to reach out to agency employees, the Office of Investigations created and
distributed a new OIG hotline poster and is revising the OIG brochure. The OIG
Investigations staff has also contributed articles and Integrity Tips for the NCUA
newsletter, Inside NCUA.

BOARD TAKES FINAL ACTION ON OIG PER DIEM REPORT

In taking personnel actions as a result of the recommendations of the Office of Special
Counsel on issues arising from the OPM report of August 1997, the NCUA Board also
considered OIG recommendations regarding the payment of per diem to examiners
assigned to false duty locations. Certain NCUA officials approved payment of per diem
to new examiners who were residing in their own homes. Per diem is normally used to
reimburse employees’ meal, lodging and some other expenses when on official travel
away from the permanent duty station. The Board also committed to ensure that the
Travel Manual is revised to make clear that no per diem expense may be claimed when
an employee is residing at his or her residence, no matter where the duty station is, except
for specific limited exceptions.

BOARD   DISCIPLINES   MANAGER                       FOR       GRANTING          ILLEGAL
PREFERENCES TO TWO EMPLOYEES

Also in connection with the OPM report issues, the Board disciplined a manager ni volved
with assigning examiners to false duty locations, who also granted illegal preferences and
advantages to two employees in a region. The OIG report found that the manager had
performed a prohibited personnel practice by “pre-selecting” two employees in an
attempt to bypass merit principles prescribing fair competition.

NCUA REQUIRES GUIDANCE ON DISCLOSURE OF CREDIT UNION
FINANCIAL INFORMATION

An OIG report found that an examiner had provided a member of the public detailed
delinquent loan information from a troubled credit union, in violation of NCUA
regulations. The examiner was under the impression that the person to whom the
examiner provided the information would have been in a position to assist the institution.
Nevertheless, at the time the information was provided, the examiner was unaware of the
individual’s need for the delinquency information. Accordingly, the agency has asked
the Office of Examination and Insurance to issue detailed guidance to examiners to assist
them in determining when they may appropriately provide credit union members’
financial information to a member of the public.




                                            16
Inspector General’s Semiannual Report            National Credit Union Administration


          LEGISLATIVE AND REGULATORY REVIEWS

Pursuant to its charge under the IG Act, we continually review proposed legislation and
regulations, as well as proposed agency instructions and other policy guidance, in order
to make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 23 items, including 18 proposed
regulations, one proposed policy instruction, two EEO Reports, one legislative proposal,
and the draft “Best Practices” document for the Designated Federal Agency OIG’s. We
provided extensive comments on the Best Practices document.




                                          17
Inspector General’s Semiannual Report              National Credit Union Administration



                          OTHER OIG ACTIVITIES
STAFF TRAINING AND DEVELOPMENT

The Inspector General (IG) continued to participate in the Financial Institutions
Regulatory Committee of the Executive Council on Integrity and Efficiency (ECIE). The
Committee provides a forum for Inspectors General of the NCUA, the Federal Reserve
System, the Department of the Treasury, the FDIC, the Federal Housing Finance Board,
the Securities and Exchange Commission, and the Farm Credit Administration to: discuss
matters of mutual interest; coordinate relevant audits, investigations, legislative, and
regulatory matters; and seek uniform approaches to handling similar issues.

The Assistant IG for Audits, William DeSarno, attended the Institute of Internal Auditors
Annual Internal Auditing in Government Conference, the Federal Audit Executive
Council Conference, and the Federal Financial Institutions Regulatory OIG Council
Meetings. Senior Auditors Dwight Engelrup and Charles Funderburk also attended the
Institute of Internal Auditors Annual Internal Auditing in Government Conference.
Information Technology Auditor, Tammy Rapp, attended the Institute of Internal
Auditors Annual Internal Auditing in Government Conference and several Information
Systems Audit and Control Association seminars.

The Assistant IG for Investigations, Alexandra Keith, attended the Annual Office of
Government Ethics conference and the Association of Directors of Investigation
Conference at the Federal Law Enforcement Training Center in Glynco, Georgia. Ms.
Keith participated in a panel on legal issues in investigations for the Office of
Investigations of the Nuclear Regulatory Commission Office of Inspector General. She
presented a course on Legal Issues in Fraud Auditing at the Inspector General Audit
Training Institute, and completed presentation of an investigative training program for the
OIG/NCUA staff. Ms. Keith created and presented a new Integrity Awareness training
module to the NCUA Management Conference for Regions I, II, III, and V. Ms. Keith is
also a Vice Chairman of the Council of Counsels to Inspectors General (CCIG) and the
custodian of the CCIG Library.




                                            18
     Inspector General’s Semiannual Report                  National Credit Union Administration




                                                  TABLE I

                          INSPECTOR GENERAL ISSUED REPORTS
                                WITH QUESTIONED COSTS

                                                         Number of     Questioned    Unsupported
                                                          Reports        Costs          Costs

A.    For which no management decision had
      been made by the start of the reporting                0            $0              $0
      period.

B.    Which were issued during the reporting
      period.                                                1          15,000*           0

      Subtotals (A + B)                                      1          15,000*           0

C.    For which management decision was
      made during the reporting period.                      0             0              0

      (i) Dollar value of disallowed costs                   0             0              0

      (ii) Dollar value of costs not disallowed              0             0              0

D.    For which no management decision has
      been made by the end of the reporting                  0             0              0
      period.

E.    Reports for which no management
      decision was made within six months of                 0             0              0
      issuance.
                                                                     *approximate


     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings which at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.




                                                    19
Inspector General’s Semiannual Report               National Credit Union Administration



                                        TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                              Number of        Dollar
                                                               Reports         Value

 A.    For which no management decision had been
       made by the start of the reporting period.                 0             $0

 B.    Which were issued during the reporting period.             0              0

       Subtotals (A + B)                                          0              0

 C.    For which management decision was made
       during the reporting period.                               0              0

       (i) Dollar value of recommendations agreed to
       by management.                                            N/A             0

       (ii) Dollar value of recommendations             not
       agreed to by management.                                  N/A             0

 D.    For which no management decision was made
       by the end of the reporting period.                        0              0

 E.    For which no management decision was made
       within six months of issuance.                             0              0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                             20
 Inspector General’s Semiannual Report        National Credit Union Administration



                                   TABLE III

                      SUMMARY OF OIG ACTIVITY
                 OCTOBER 1, 1999 THROUGH MARCH 31, 2000

PART I – AUDIT   REPORTS ISSUED
Report                                                                   Date
Number          Title                                                    Issued
OIG-99-08       Y2K Progress of High Risk Credit Unions                  10/27/99
OIG-99-09       Y2K Review of Credit Union Liquidity Plans               12/09/99
OIG-99-10       Y2K Readiness Status of Credit Union Vendors             12/07/99
OIG-00-01       Financial Audit: Share Insurance Fund                    3/31/00
OIG-00-02       Financial Audit: NCUA Operating Fund                     3/31/00
OIG-00-03       Financial Audit: Central Liquidity Facility              3/31/00
OIG-00-04       Financial Audit:       Community Development Revolving   3/31/00
                Loan Program
PART II – AUDITS IN PROCESS (as of March 31, 2000)
                Review of Notebook Computers
                SAP Security and Control Audit
                SEC OIG Peer Review
                Region I Management Consulting Agreement – Accuracy       of 5300
                Reports




                                         21
Inspector General’s Semiannual Report        National Credit Union Administration




                      WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE1-800-778-4806

                     WASHINGTON METRO AREA
                         703-518-6357
        You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        22
